SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, D. C. 20543–0001
July 2019
SCOTT S. HARRIS

AREA CODE 202

CLERK OF THE COURT

479–3011

MEMORANDUM TO THOSE INTENDING TO PREPARE A PETITION
FOR A WRIT OF CERTIORARI IN BOOKLET FORMAT AND PAY THE
$300 DOCKET FEE.
This memorandum is directed to those who intend to prepare a petition for a writ
of certiorari in booklet format pursuant to Rule 33.1 and pay the $300 docket fee
required by Rule 38(a). It highlights the most common mistakes observed by the
Clerk’s Offce. By following these guidelines you may help to expedite the processing
of your petition. If you have questions, they should be directed to a case analyst in
the Clerk’s Offce. This memorandum is useful also for those preparing appeals under
Rule 18. The Rules of the Supreme Court, including amendments to those Rules that
went into effect on July 1, 2019, are available at the Filing and Rules section of the
Court’s website.
Attorneys must submit petitions and other documents through the Court’s electronic fling system. At this time, paper remains the offcial means of fling, and the
electronic fling requirements are in addition to the existing requirements for paper
flings. Attorneys must register through the electronic fling system prior to submitting their documents; it may take 1–2 days for an application to be approved, so attorneys should apply well in advance of a fling deadline. Documents should be submitted
through the electronic fling system contemporaneously with the submission of the
paper version. Certain types of flings—including those containing sealed material
and those in cases that were governed below by Fed. R. Civ. P. 5.2(c)—should not be
submitted electronically. Personal identifying information contained in flings must be
redacted pursuant to Rule 34.6. More detailed information can be found in the Court’s
Rules, in the Guidelines for the Submission of Documents to the Supreme Court’s
–1–

Electronic Filing System, and in other guidance available at the Electronic Filing section of the Court’s website.
1.

PAGE AND TYPE SIZE:
The petition and the appendix required by Rule 14 must be presented on paper that

is 61⁄8 by 91⁄4 inches and not less than 60 pounds in weight as stated in Rule 33.1(a) and (c).
The color of the cover must be white. Rule 33.1(g)(i). The petition shall be typeset in
a Century family (e.g., Century Expanded, New Century Schoolbook, or Century Schoolbook) 12-point type with 2-point or more leading between lines. Footnotes must be 10point with 2-point or more leading between lines. Any type that does not measure on a
typesize fnder to be 12-point for the body and 10-point for footnotes will not be accepted.
Attached are sample copies of correct and incorrect type.
Petitions produced on a personal computer using word processing, electronic publishing, or image setting are considered typeset and are acceptable. Petitions produced on a
typewriter are not acceptable. Quotations exceeding 50 words shall be indented. The
text of the petition and the appendix thereto must appear on both sides of the page.
Rule 33.1(b).
2.

COVER and COVER PAGE INFORMATION:
The front and back covers of the petition shall consist of 65-pound weight white

paper. Rule 33.1(e). Items on the cover of the petition shall be in the order set forth in
Rule 34.1(a) through (f ). The caption of the case must list the petitioner(s) in this Court on
the topside of the versus with your real opponent(s) on the bottom side. You should not
copy the caption of the case as it appeared in the lower court unless it accurately identifes who the petitioner(s) and who the respondent(s) are in this Court. Counsel of record
shall be a member of the Bar of this Court at the time the petition is presented for fling.
Rule 34.1(f ). Names of other attorneys who are members of the Bars of the several states
may be listed on the cover, but names of non-lawyers such as research assistants, law
students, and advisors may not appear on the cover under any circumstances; nor are
they to be credited with having contributed to the preparation of the petition either in the
text, in a footnote, or at the conclusion of the petition. If you are representing yourself,
your name, address, and telephone number shall appear on the cover. If the names of
–2–

the parties are too lengthy to be fully included on the cover of the petition, a short caption
may be used. The complete listing of the parties to the proceeding in this Court shall be
placed on the page following Questions Presented for Review. Rule 14.1(b). No text of
the petition is to appear on the inside of the front or back covers. Do not list the October
Term of the Court on the cover of the petition. A sample cover that may be followed as
to form only is attached to this memo.
3.

QUESTIONS PRESENTED:
The frst page of the petition, not the back of the front cover, must contain

Questions Presented for Review. Rule 14.1(a). The caption of the petition is not
to be repeated on this page. The question(s) may be prefaced by a very brief introductory
statement to set the scene, so that the question(s) may be understood. The question(s)
should be short and concise and may not be argumentative or repetitious. If the petitioner or respondent is under a death sentence that may be affected by the disposition
of the petition, the notation “CAPITAL CASE” shall precede the words “Questions
Presented.” No other information is to be included on this page. Rule 14.1(a).
4.

PARTIES TO PROCEEDING AND RELATED CASES:
The next page shall list the parties to the proceeding in this Court if all their

names do not appear on the cover. Rule 14.1(b)(i). This list must be precise. Should
a corporate entity be a petitioner, the Rule 29.6 corporate disclosure statement is to
appear on this page. If there is no parent or publicly held company owning 10% or more
of the corporation’s stock, a statement to that effect shall be included on this page.
Rules 14.1(b)(ii) and 29.6.
A list of all proceedings in other courts that are directly related to the case in this
Court should also appear on this page. Rule 14.1(b)(iii). Below is an example of the
format that should be used for this list:

·

Smith v. Jones, No. 18-cv-200, U. S. District Court for the Western District of
Pennsylvania. Judgment entered Oct. 1, 2018.

·

Smith v. Jones, No. 18-1200, U. S. Court of Appeals for the Third Circuit. Judgment entered Apr. 15, 2019.

–3–

5.

NUMBERING OF PAGES:
The pages containing questions presented for review, the list of parties and corporate

disclosure statement, table of contents, and table of authorities should be numbered (i),
(ii), (iii), etc. The table of contents and the table of authorities are followed by the text
of the petition. Rule 14.1(c). There should be no second cover page prior to beginning
the text of the petition. The pages of the text of the petition should be numbered 1, 2,
3, etc., and not a continuation of (i), (ii), (iii), etc. In no event may the text of the petition
exceed 9000 words. Rule 33.1(d) and Rule 33.1(g)(i).

6.

CONTENTS OF APPENDIX:
The appendix to the petition must contain all items required by Rule 14.1(i). If you

are seeking review of a state court judgment and an intermediate state appellate court
was the last court to act on the merits, you shall include in the appendix any order
regarding a petition for rehearing that may have been acted upon by that court as well
as any orders denying discretionary review that may have been issued by higher state
courts. Any order denying rehearing that starts the running of the time for fling the
petition must also be contained in the appendix. Those orders shall include the caption
showing the name of the issuing court, the title and number of the case, and the date of
entry. Rule 14.1(i)(i) through (iv). If you are seeking review of a judgment from a
United States Court of Appeals, you must, on that document, include the names of the
judges who acted on the appeal. Any published and unpublished opinions issued with
respect to the judgment sought to be reviewed shall be included in the appendix. Should
the appendix become too voluminous, it may be presented in a separate volume or volumes
with white covers bearing the appropriate caption.
The Court’s practice is to scan and make available on its website most flings submitted by litigants representing themselves. The Court scans petitions, motions to proceed
in forma pauperis, proofs of service, and the portion of an appendix that includes relevant
lower court opinions and rulings. While the Court does not scan other portions of an
appendix from a pro se litigant, the entire appendix is fully a part of the Court’s record
and is available to the Justices.
–4–

7.

REPRODUCING DOCUMENTS IN APPENDIX:
Material contained in the appendix as required by Rule 14.1(i) must also comply in

all respects with the type size and page size requirements contained in Rule 33.1. Lower
court orders and opinions issued on paper larger than 61⁄8 by 91⁄4 inches may not be photoreduced. Rule 33.1(b). These items must be reformatted to comply with Rule 33.1 and
they must contain the caption showing the name of the issuing court or agency, the title
and number of the case, and the date of entry. Rule 14.1(i). If a signature is contained
on the original, reproduce the name by using “s/”. The seal of the lower court and the
fle stamp may be reproduced by typesetting the information verbatim. Photo reproductions from Federal Supplement, Federal 2nd and 3rd Reporters, and regional reporters
are not acceptable under Rule 33.1. Such materials must be reformatted to comply with
the type size requirements of Rule 33.1. Items in the appendix are to be arranged as
required by Rule 14.1(i)(i) through (vi).
8.

BINDING:
The petition and appendix shall be bound frmly in at least two places along the left

margin so as to make an easily opened volume. No part of the text may be obscured by
the binding. Saddle stitching or perfect binding is preferred. Staples may be used, with
at least two along the left margin, covered with tape. Under no circumstances may spiral, plastic, metal, or string bindings be used. Rule 33.1(c).
9.

DOCKET FEE:
The $300 docket fee and the certifcate of service shall accompany the petition.

These items should not be sent under separate cover. The $300 docket fee may be paid
by personal check, cashier’s check, money order, or certifed check made out to “Clerk,
U. S. Supreme Court.” Rule 38(a). Do not send cash.
10.

CERTIFICATE OF SERVICE:
The certifcate of service of the petition shall be on a separate piece of paper apart

from the petition. Rule 29.5. The certifcate of service shall identify who was served
with three copies of the petition and list the names, addresses, and telephone numbers of
–5–

counsel indicating the name of the party or parties each counsel represents. Rule 29.5.
If the proof of service is signed by a member of the Bar of this Court, notarization is not
needed. If it is executed by one who is not a member of the Bar of this Court, the
signature shall be either notarized or be accompanied by a declaration in compliance with
28 U. S. C. § 1746. Rule 29.5(c). The certifcate of service is not to be included in the
bound petition.
11.

CERTIFICATE OF COMPLIANCE:
The petition for a writ of certiorari must be accompanied by a certifcate signed by

the attorney, the unrepresented party, or the preparer of the document stating that the
petition complies with the word limitation. The person preparing the certifcate may
rely on the word count of the word-processing system used to prepare the petition. The
word-processing system must be set to include footnotes in the word count. The certifcate must state the number of words in the petition. The certifcate shall accompany the
petition when it is presented to the Clerk for fling and shall be separate from it. If the
certifcate is signed by a person other than a member of the Bar of this Court, the counsel
of record, or the unrepresented party, it must contain a notarized affdavit or declaration
in compliance with 28 U. S. C. § 1746. A sample certifcate of compliance that may be
followed as to form is attached to this memo.
12.

TIME FOR FILING:
You have ninety calendar days, not three months, from the date of entry of judgment,

order or opinion, or the date a timely fled petition for rehearing is denied, or a subsequent
judgment based on the grant of the petition for rehearing, within which to fle with the
Clerk a petition for a writ of certiorari. Rules 13.1 and 13.3. The time to fle does not
begin to run when the mandate, remittitur, rescript, or similar document issues or is fled
in the lower court. Rule 13.3. In order for the petition to be timely fled, it shall either
be received by the Clerk of the Court within those ninety days or be sent to the Clerk
by frst-class United States Postal Service, including express and priority mail, postage
prepaid, and bearing a postmark, other than a commercial postage meter label, showing
that the document was mailed on or before the last day for fling; or if it is delivered on
or before the last day for fling to a third-party commercial carrier for delivery to the
Clerk within 3 calendar days.
–6–

CORRECT TYPE
by allowing defenses based on school misconduct in
situations in which the school’s involvement in the
lending relationship was not unusually extensive.
For the same reason, petitioner errs in contending
(Pet. 18–19) that the decision of the court of appeals
conficts with this Court’s cases allowing state law
to impose liability greater than the liability imposed
by federal law. Such cases, including English v.
General Electric Co., 496 U. S. 72 (1990), and California v. ARC America Corp., 490 U. S. 93 (1989),
address situations in which there is no confict between the State’s imposition of greater liability and
federal law. Here, as in Hines, there is a confict,
because the federal scheme did not simply permit
state-law school-based defenses in specifed circumstances but limited state-law school-based defenses to those circumstances.5
3. There is no confict among the courts of appeals
on the question presented by petitioner, as petitioner
herself admits. Pet. 21, 24. Petitioner nonetheless
urges this Court to grant review on the basis of “divergent decisions emerging from the lower courts.” Pet
21. In fact, the lower courts have uniformly found
state laws comparable to the one at issue here to be
preempted. This Court’s review is not warranted
based on petitioner’s assertion that those courts apply
different rationales in reaching their uniform results.
––––––––––––
5
Petitioner’s reliance (Pet. 20–21) on United States v. Kimbell
Foods, Inc., 440 U. S. 715 (1979), Wallis v. Pan American Petroleum Corp., 384 U. S. 63 (1966), and United States v. Yazell,
382 U. S. 341 (1966), is also misplaced. Those decisions concern the issue whether a court should rely on state law or
fashion a federal common law rule when the court must fll in
the interstices of a federal program. They do not concern the
question presented here—under what circumstances federal law
preempts conficting state law.

–7–

INCORRECT TYPE
ing whether an agency’s statement is what the APA calls a “rule”
can be a diffcult exercise. We need not conduct that exercise in
this case, however. For even assuming that a statement terminating
the Program would qualify as a “rule” within the meaning of the
APA, it would be exempt from the notice-and-comment requirement of § 553.7 Termination of the Program might be seen as
affecting the Service’s organization, but “rules of agency organization” are exempt from notice-and-comment requirements under
§ 553(b)(A). Moreover, § 553(b)(A) also exempts “general statements of policy,” which we have previously described as “ ‘statements issued by an agency to advise the public prospectively of
the manner in which the agency proposes to exercise a discretionary power.’ ” Chrysler Corp., supra, at 302, n. 31 (quoting Attorney General’s Manual on the Administrative Procedure Act 30, n. 3
(1947)). Whatever else may be considered a “general statemen[t]
of policy,” the term surely includes an announcement like the one
before us, that an agency will discontinue a discretionary allocation
of unrestricted funds from a lump-sum appropriation.
Our decision in Citizens to Preserve Overton Park, Inc. v. Volpe,
401 U. S. 402 (1971), confrms our conclusion that the Service was
not required to follow the notice-and-comment procedures of § 553
before terminating the Program. Overton Park dealt with the Secretary of Transportation’s decision to authorize the use of federal funds
to construct an interstate highway through a public park in Memphis,
Tennessee. Private citizens and conservation organizations

–––––––––––––––––––––––––––
the organization, procedure, or practice requirements of an agency and includes
the approval or prescription for the future of rates, wages, corporate or fnancial
structures or reorganizations thereof, prices, facilities, appliances, services or allowances therefor or of valuations, costs, or accounting, or practices bearing on
any of the foregoing.”
7
We express no view on the application of the publication requirements of
§ 552, or on the propriety of the relief granted by the District Court. The Court
of Appeals did not address these issues. See, supra, at 190.

–8–

SAMPLE COVER TO FOLLOW AS TO FORM

No.

In The

Supreme Court of the United States

My Client(s),
Petitioner(s)
v.
My Opponent(s)
Respondent(s)

On Petition For Writ Of Certiorari
To The (court whose judgment you seek to review)

PETITION FOR WRIT OF CERTIORARI

My Name
Counsel of Record
My Firm
My Street Address
City, State, Zip Code
My Telephone Number

–9–

SAMPLE CERTIFICATE OF COMPLIANCE WITH WORD COUNT

CERTIFICATE OF COMPLIANCE
No. 07-

My Client(s),
Petitioner(s)
v.
My Opponent(s)
Respondent(s)

As required by Supreme Court Rule 33.1(h), I certify that the petition
for a writ of certiorari contains
words, excluding the parts of the
petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

, 20

– 10 –

